No. 20-1249
In the

Supreme Court of the United States
__________♦__________

GARY VICTOR DUBIN,

Petitioner,

v.

OFFICE OF DISCIPLINARY COUNSEL,

Respondent.

__________♦__________

MOTION FOR LEAVE TO FILE AN AMICUS
BRIEF ON BEHALF OF HUNDREDS OF
PETITIONER’S CLIENTS HAVING BOTH
INDEPENDENT STANDING AND ADDITIONAL
REASONS SUPPORTING GRANTING REVIEW
__________♦__________
GARY VICTOR DUBIN

Counsel of Record

DUBIN LAW OFFICES
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Facsimile: (808) 523-7733
Cellular: (808) 392-9191
E-Mail: gdubin@dubinlaw.net

Attorney for Client Amici

MOTION FOR LEAVE TO FILE AN AMICUS
BRIEF ON BEHALF OF HUNDREDS OF
PETITIONER’S CLIENTS HAVING BOTH
INDEPENDENT STANDING AND ADDITIONAL
REASONS SUPPORTING GRANTING REVIEW
Hundreds of Petitioner’s Clients (“Clients”), many
named in Exhibit 1 attached to this Motion, too
numerous a class to include in the caption of this
matter, respectfully move this Court, pursuant to
Rule 37.2(a), for leave to file an Amicus Brief which
is also attached in support of the Petition for Writ of
Certiorari docketed in Case No. 20-1249.
This Motion is timely filed on March 22, 2021 as
the Petition was filed on February 25, 2021.
Petitioner consents to the filing, but Respondent,
receiving timely notice, has not approved.
If this Motion is granted, Clients will bring to the
Court’s attention the following additional matters of
great independent urgency beyond what is presented
in the Petition, deserving to be high on Your Agenda,
more fully described in the attached Amicus Brief:
1. The Protection Of Petitioner’s Clients Requires
Granting Appellate Review. Clients are real parties
in interest having separate, independent standing,
entitling them to support the Petition, heretofore
ignored, unable to defend their constitutional rights,
not named as parties, while cavalierly denied formal
notice and any participation in the underlying
disbarment proceedings, being victims nevertheless,
highly prejudiced by the disbarment, having had
their cases thereby disrupted and their investment
in Petitioner’s legal services lost, left foundering.
1

2. The Protection Of The Public’s Constitutional
Rights Requires Granting Appellate Review. There
is strong public interest in having this Court grant
review, not only on Client’s behalf, but also on behalf
of hundreds of thousands of homeowners, similarly
situated annually, whose foreclosure defense
attorneys continue to be unfairly disbarred
nationally, state by state, by an autocratic state
attorney disbarment system exactly as described in
the Petition in Hawaii, otherwise thus far immune,
evading any meaningful appellate, error correction
or oversight enforcement of constitutional rights.
3. The Protection Of Access To Justice For

Millions Of Homeowners Requires Granting
Appellate Review. The general public and their

families, in even more growing numbers as an
aftermath of the current pandemic, continue to face
foreclosure
and
eviction,
unable
to
find
representation, denied “Access to Justice,” clogging
our courts with pro se litigants, since such unfair
disbarments, presently effectively unreviewable, are
discouraging
attorneys
from
representing
homeowners especially on a pro bono basis as
Petitioner had been doing, otherwise risking
arbitrary loss of their law licenses, not being allowed
any appellate oversight except in this usually nonerror-correcting Court, while other professionals
such as physicians are allowed full review unequally.
Respectfully submitted,

/s/ Gary Victor Dubin

______________________________
GARY VICTOR DUBIN

Honolulu, Hawaii Counsel of Record
March 22, 2021
Attorney for Client Amici
2

